                    Office of Inspector General




                 Semiannual Report to Congress
                        April 1, 2013 - September 30, 2013



FCC OIG - Semiannual Report to Congress             April 1, 2013 - September 30, 2013
                    THE FEDERAL COMMUNICATIONS COMMISSION




Left to Right: Commissioner Jessica Rosenworcel, Acting Chairwoman Mignon Clyburn and Commissioner Ajit Pai.




FCC OIG - Semiannual Report to Congress                2                   April 1, 2013 - September 30, 2013
                                      COVER MEMORANDUM


   DATE:                 September 30, 2013

   TO:                   Acting Chairwoman Mignon Clyburn,
                         Federal Communications Commission
                         Commissioner Jessica Rosenworcel
                         Commissioner Ajit Pai

   FROM:                 Inspector General

   SUBJECT:              Semiannual Report to Congress


   In accordance with Section 5 of the Inspector General Act, as amended, 5 U.S.C. App. 3 § 5, I have attached
   my report summarizing the activities and accomplishments of the Office of the Inspector General ("OIG")
   during the six-month period ending September 30, 2013. In accordance with Section 5(b) of that Act, it
   would be appreciated if this report, along with any associated report that you prepare as Chairman of the
   Federal Communications Commission ("FCC"), were forwarded to the appropriate Congressional oversight
   committees within 30 days of your receipt of this report.

   This report describes audits that are in process, as well as those that have been completed during the
   preceding six months. OIG investigative personnel continued to address issues referred to, or initiated by,
   this office. Where appropriate, investigative and audit reports have been forwarded to the Commission's
   management for action.

   This office remains committed to maintaining the highest possible standards of professionalism and quality
   in its audits, investigations, inspections and consultations and we welcome any comments or suggestions that
   you might have. Please let me know if you have any questions or comments.




                                                               David L. Hunt
                                                               Inspector General
   Enclosure




FCC OIG - Semiannual Report to Congress                    3                       April 1, 2013 - September 30, 2013
                                                  TABLE OF CONTENTS



      INTRODUCTION .......................................................................................................................... 5
      OFFICE OF MANAGEMENT ....................................................................................................... 6
         Office Staffing ............................................................................................................................. 6
         Information Technology (“IT”) Initiatives .................................................................................. 6
         Internship Program ...................................................................................................................... 7
         Legislative and Policy Matters .................................................................................................... 7
      OFFICE OF AUDIT ....................................................................................................................... 9
         Operations, Financial, and Information Technology Division .................................................... 9
            Completed Audits and Other Projects ..................................................................................... 9
            In-Process Audits and Other Projects .................................................................................... 10
         Universal Service Fund Oversight Division ............................................................................. 13
            Completed Audits and Other Projects .................................................................................... 15
            In-Process Audits and Other Projects .................................................................................... 17
         Special Projects Team ............................................................................................................... 17
            Completed Projects and Assignments ................................................................................... 17
            In-Process Projects and Assignments .................................................................................... 18
      OFFICE OF INVESTIGATIONS ................................................................................................ 19
         Activity During This Period ...................................................................................................... 19
            Statistics ................................................................................................................................. 19
            Significant Activities ............................................................................................................. 19
         Internal Affairs .......................................................................................................................... 22
         Office of Inspector General Hotline .......................................................................................... 23
      REPORTING REQUIREMENT....................................................................................................25
      APPENDIX ................................................................................................................................... 27




FCC OIG - Semiannual Report to Congress                                               4                                April 1, 2013 - September 30, 2013
                                           INTRODUCTION

   The Federal Communications Commission ("FCC" or “the Commission”) is an independent regulatory
   agency, established by Congress to regulate interstate and foreign communications by radio, television,
   wire, satellite and cable. The FCC’s jurisdiction covers the fifty states, the District of Columbia, the
   Commonwealth of Puerto Rico and all U.S. territories.

   The FCC consists of a Chairwoman and four Commissioners, who are appointed by the President and
   confirmed by the United States Senate. Mignon Clyburn serves as Acting Chairwoman. Jessica
   Rosenworcel and Ajit Pai serve as Commissioners and there are currently two commissioner vacancies.
   Most of the FCC's employees are located in Washington, D.C. at the Portals II building, which is located
   at 445 12th St., S.W., Washington, D.C. Field offices and resident agents are located throughout the
   United States.

   The Office of Inspector General ("OIG" or “Office”) is dedicated to ensuring compliance with the
   requirements of the Inspector General Act and assisting the Chairman in his continuing efforts to improve
   the effectiveness and efficiency of the Commission. In accordance with the Dodd-Frank Wall Street
   Reform and Consumer Protection Act of 2010, the Inspector General (“IG”), David L. Hunt, reports
   directly to the Commission. Management matters are coordinated with the Chairman’s office. The IG's
   staff consists of attorneys, auditors, economists, investigators, management specialists and support
   personnel. Principal assistants to the IG are: Thomas C. Cline, Deputy IG; Gerald Grahe, Assistant In-
   spector General ("AIG") for Audits; Harold F. Shrewsberry, AIG for Management; Jay C. Keithley, AIG
   for Investigations and Counsel to the IG; Kathleen O’Reilly, Special Counsel on the Universal Service
   Fund and Jon R. Stover, Senior Legal Advisor.

   This semiannual report includes the major accomplishments and activities of OIG from April 1, 2013
   through September 30, 2013, as well as information on the IG’s goals and future plans.




FCC OIG - Semiannual Report to Congress                    5                     April 1, 2013 - September 30, 2013
                                       OFFICE OF MANAGEMENT

   OFFICE OF MANAGEMENT
   Office Staffing

   OIG is comprised of 34 Full Time Equivalent (“FTE”) and two Not to Exceed (“NTE”) term appointed
   professionals, and seven FTE and one NTE support personnel. The staffing needs of this office have been
   described in prior Semiannual Reports. OIG hired five professional staff and one support person this
   reporting period and there are other hiring actions in progress.

   OIG had requested funds in the last four fiscal year (“FY”) budget requests for additional staff. Additional
   funds were provided to OIG in the FY 2012 budget authorization, but we were not provided a specific
   FTE allocation. The FY 2013 Continuing Resolution (“CR”) budget and the sequestration lowered the
   OIG budget; however, prior planning enables us to meet the budget constraints without degrading OIG’s
   mission capabilities. Although the past budgets did not increase OIG’s FTE allocation, OIG continues to
   seek funding to hire additional FTE staff to meet our needs in providing oversight of Commission
   programs and operations. Most notably, we have created and filled three Deputy AIG for Audit, a
   reorganization that greatly enhances the operations of our audit team. OIG continues to hire staff to meet
   our expanded needs and capabilities, but the federal government shutdown that occurred subsequent to the
   reporting period has hamstrung several hiring activities that were in progress.

   Our professional staff consists of well-trained, experienced professionals, most of whom have one or more
   professional certifications. In our continuing efforts to increase the expertise of our auditors, attorneys,
   investigators, and administrative staff and to meet the training requirements of our professional standards,
   members of this office have attended classes at the Federal Law Enforcement Training Center, the
   Inspector General Criminal Investigative Academy, other Inspectors General training programs and other
   relevant venues.
   Information Technology (“IT”) Initiatives

   OIG continues to focus on improving the efficient use of scarce resources and makes every effort to find
   and utilize modern technology in ways that will leverage our resources for the most efficient and effective
   investigations and prosecutions of fraud, waste and abuse in FCC missions and programs.

   Computer Forensics Laboratory

   We reported in our last Semiannual Report that we had hired a computer forensics examiner and were
   developing a computer forensics laboratory (“lab”) to support investigations. That lab is now fully
   functional and providing critical support to internal investigations.

   The computer forensics laboratory was created to provide laboratory and field support for digital evidence
   seized or surrendered to OIG or other law enforcement agencies working with the OIG. Typical
   digital evidence forensic support services include: computer and computer storage examination, volatile
   and flash memory storage device examination, on-site computer hard drive imaging, expert witness
   testimony, data analysis to determine evidentiary value, and technical training.




FCC OIG - Semiannual Report to Congress                    6                      April 1, 2013 - September 30, 2013
                                 OFFICE OF MANAGEMENT

  In addition to supporting investigations, the computer forensics laboratory supports other OIG IT initiatives.
  For example, the computer forensics laboratory sterilizes surplus digital media used by OIG auditors and
  investigators to ensure that sensitive information is not released when that media is returned to the FCC
  helpdesk. During the reporting period, the computer forensics laboratory wiped hard drives from 24
  computers and external devices as well as two iPhones obtained as part of an investigation.

  The computer forensics lab also supported a project to examine and disposition a large volume of digital
  media that the office has accumulated through the normal course of audits and investigations as well as
  digital media used by OIG staff going back to the early 1990s. The media was examined to determine if
  information contained on the media needed to be maintained for records management or other purposes and to
  wipe and dispose of the media that did not need to be maintained. During the reporting period, the computer
  forensics laboratory examined 28 computer hard drives, 254 CDs and DVDs, and a variety of other media in-
  cluding backup tapes, ZIP disks and floppy disks.

  OIG Subnetwork

  OIG recently initiated a project to further protect OIG independence by establishing an OIG subnetwork. This
  will be achieved by designing a subnetwork within the FCC network, with its own firewall and subsystems
  that we determine to be both necessary and technologically feasible. A subnetwork would provide faster
  access to our storage area network (“SAN”), with fewer users and less congestion in SAN usage. This
  initiative is in an exploratory stage at the present time.

  Electronic Records Management

  OIG is in the process stage of developing an electronic records management system that will provide a
  reliable method to electronically store and use records. The primary objectives of this initiative are to a)
  provide OIG auditors and investigators with enhanced automated methods for discovery and documentation
  processes b) develop a knowledge base of previous audit and investigation findings regarding vulnerabilities
  and lessons learned, and c) develop mechanisms to manage OIG records consistent with federal mandates and
  policies.

  Internship Program

  OIG welcomes college interns during the fall, spring and summer semesters. OIG currently has two
  unpaid interns. OIG is using the Pathways program to hire an FTE mathematician and a paid legal advisor
  intern. Our interns have come from schools across the country. These internships have proven to be
  rewarding experiences for all participants. Students leave with a good understanding of how a
  government agency operates, and they have the opportunity to encounter challenges while enjoying the
  rewards that can come from public service. In turn, the Office has benefited from the students’ excellent work
  performance.

  Legislative and Policy Matters

  Pursuant to section 4(a)(2) of the Inspector General Act of 1978, 5 U.S.C.A. App. as amended, our Office
  monitors and reviews existing and proposed legislation and regulatory proposals for their potential impact on
  OIG and the FCC’s programs and operations. Specifically, we perform this activity to evaluate legislative
  potential for encouraging economy and efficiency while helping to reduce fraud, waste, abuse, and
  mismanagement.



FCC OIG - Semiannual Report to Congress                     7                     April 1, 2013 - September 30, 2013
                                  OFFICE OF MANAGEMENT

  In addition to legislative developments, OIG continuously monitors FCC policy development and provides
  input as appropriate. We have also participated in many surveys and data calls sponsored by the Council
  of Inspectors General for Integrity and Efficiency and the Recovery Accountability and Transparency
  Board.

  Please see the Appendix to this report for information regarding peer reviews as required by Public Law
  111-203.




FCC OIG - Semiannual Report to Congress                  8                     April 1, 2013 - September 30, 2013
                                       OFFICE OF AUDIT

  OFFICE OF AUDITS

  Under the authority of the Inspector General Act of 1978, as amended, OIG conducts independent and
  objective audits, inspections and related activities designed to prevent and detect waste, fraud and abuse
  and to promote economy, effectiveness and efficiency in FCC programs and operations. The Office of
  Audit (“OA”) ensures that these audits, inspections and activities are conducted in accordance with
  relevant professional standards.

  During this reporting period, three Deputy AIGs were selected. Initially, each Deputy has one team
  performing Universal Service Fund (“USF”) oversight and one team performing oversight internal to the
  FCC. The projects below are described under the organization of OA in place for most of the semiannual
  reporting period, specifically, two reporting divisions - the Operations, Financial, and Information
  Technology Division (“OFID”) and the Universal Service Fund Oversight Division (“USFD”) as well as a
  Special Projects team.

  Highlights of the work conducted by the OA during the current semiannual reporting period are provided
  below.

  Operations, Financial, and Information Technology Division

  OFID conducts audits, inspections, evaluations, and other reviews designed to prevent and detect waste,
  fraud, and abuse and to promote economy and efficiency in the FCC. One FCC program under the
  purview of OFID is the Telecommunications Relay Service (“TRS”) fund that compensates TRS providers
  – generally telephone companies – for the costs of providing a telephone service that allows persons with
  hearing or speech disabilities to place and receive telephone calls.

  Completed Audits and Other Projects

  Website Security Assessment

  The FCC Website Security Assessment objectives were to determine:

         1) The adequacy and effectiveness of the controls over the FCC.gov website environment;
         2) the adequacy of and compliance with the FCC’s website related directives, policies and
             procedures; and
         3) FCC’s compliance with National Institute of Standards and Technology guidance regarding
             website management and security, including security in public cloud computing.

  On June 14, 2013, we issued our Report on the Federal Communications Commission Website Security
  Assessment identifying 16 findings and 37 recommendations. Management’s comments to the final report
  noted, “ITC has no comment and accepts the report on the FCC Website Security Assessment.” Based on
  the inclusion of sensitive information, the report is for internal use only and will not be made available.




FCC OIG - Semiannual Report to Congress                    9                     April 1, 2013 - September 30, 2013
                                     OFFICE OF AUDIT
  In-Process Audits and Other Projects

  Audit of the FCC Fiscal Year 2013 Consolidated Financial Statements

  The Chief Financial Officers Act of 1990 (“CFO Act”), as amended, requires OIG, or an OIG-selected
  independent external auditor, to audit the financial statements in accordance with government auditing
  standards (“GAGAS”) issued by the Comptroller General of the United States. Under OA contract and
  direction, KPMG LLP (“KPMG”), an independent public accounting firm, is performing the audit of the
  FCC’s FY 2013 consolidated financial statements. The audit is being conducted in accordance with
  GAGAS, Office of Management and Budget (“OMB”) Bulletin 07-04, as amended and applicable sections
  of the U.S. Government Accountability Office ("GAO")/President’s Council on Integrity & Efficiency
  (“PCIE”) Financial Audit Manual. We expect to complete the audit during the next reporting period.

  Fiscal Year 2013 Federal Information Security Management Act Evaluation

  The Federal Information Security Management Act (“FISMA”) requires federal agencies to develop,
  document, and implement an agency-wide program to provide information security for the information and
  information systems supporting the operations and assets of the agency, including those provided or
  managed by another agency, contractor, or other source. According to FISMA, “information security”
  means protecting information and information systems from unauthorized access, use, disclosure,
  disruption, modification, or destruction in order to provide integrity, confidentiality and availability.

  OIGs are required to annually evaluate agency information security programs and practices. The
  evaluations must include testing of a representative subset of systems, and based on that testing, an
  assessment of the agency’s compliance with FISMA and applicable requirements. OIG contracted with
  KPMG to perform the FY 2013 evaluation. This evaluation is currently ongoing anticipating completion
  during the next semiannual reporting period.

  Follow-Up Inspection of the Implementation of Policies and Procedures to Improve the Purchase and
  Travel Card Program

  OA is conducting an inspection of the FCC’s purchase and travel card program to follow-up on findings
  from a 2010 OIG audit. The inspection will determine whether policies and procedures have been
  implemented to address deficiencies reported in the June 23, 2010 audit report. Fieldwork is complete and
  we expect to issue our final report during the next semiannual reporting period.

  Physical Security Assessment

  The FCC Physical Security Assessment objectives include:

         1) Assess the adequacy and the effectiveness of the FCC’s physical security program;
         2) Determine the adequacy of, and compliance with, the FCC’s physical security policies,
            procedures, and directives; and
         3) Determine the Commission’s compliance with relevant laws, regulations, directives, standards,
            and guidance concerning physical security from the Office of Management and Budget
            (“OMB”), Department of Homeland Security (“DHS”), and National Institute of Standards and
            Technology (“NIST”).

  This assessment will be completed during the next semiannual reporting period.

FCC OIG - Semiannual Report to Congress                 10                    April 1, 2013 - September 30, 2013
                                          OFFICE OF AUDIT
  Sole Source Contracts Inspection

  OA is conducting an inspection of the FCC’s award and administration of sole source contracts. The scope
  includes contracts awarded in FY 2011 and 2012. Objectives are to:

       1) Determine if sole source contracts were awarded (scope to include pre-solicitation, solicitation,
          evaluation and award) in accordance with provisions of the Federal Acquisition Regulation, FCC
          policies and procedures; and
       2) Evaluate the adequacy of the design and implementation of internal controls related to the award
          of sole source contracts.

  We expect to issue our final report during the next semiannual reporting period.

  Audit of the FCC Red Light Rule: Debt Collection

  OA has contracted with the independent public accounting firm Lani Eko and Company (“LEC”) to
  perform an audit of part of FCC’s debt collection effort, the FCC’s Red Light Rule, for fiscal years 2011
  and 2012. Audit objectives include:

       1) Determine the effectiveness and accuracy of the recording and reporting of debt owed to the FCC;
       2) Evaluate the efficiency of collecting debt owed to the FCC;
       3) Assess the adequacy and the effectiveness of the internal controls over the process of tracking,
          collecting, and reporting debt owed to the FCC; and
       4) Determine the FCC’s compliance with applicable laws and regulations as well as directives,
          policies, and procedures related to the Red Light Rule.

  The audit field work is in progress and we expect the audit report to be issued during the next semiannual
  reporting period.

  Audit of FCC Management and Protection of Information Associated with Social Media

  OA has contracted with LEC to perform an audit to determine if the FCC properly protects and manages
  information associated with social media use, including Personal Identifiable Information (“PII”). Audit
  objectives include:

     1) Determine adequacy of FCC controls to properly manage and safeguard information, including PII,
        collected and disseminated thru the use of social media; and
     2) Evaluate FCC compliance with federal records management, privacy, and security laws as they
        relate to the FCC’s use of social media.

  The audit field work is complete and we expect the audit report to be issued during the next semiannual
  reporting period.

  Audit of the FCC Administrative Operations

  OA contracted with LEC for a performance audit of the FCC Administrative Operations (“AO”). AO
  includes seven components: Administrative Service Center, Health & Safety, Facilities, Contracts &
  Purchasing, Printing and Graphics Center, Security Operations Center, and the Space Management Center.


FCC OIG - Semiannual Report to Congress                    11                    April 1, 2013 - September 30, 2013
                                        OFFICE OF AUDIT

   Audit objectives include:

       1) Identify and assess the adequacy and the effectiveness of the controls over certain aspects of AO;
           and
       2) Determine the adequacy of and compliance with FCC rules, related directives, policies, and
           procedures; and determine FCC compliance with federal guidance regarding administrative
           operations.

   LEC has completed the field work and provided the draft report to OIG management for review. The draft
   report is currently under legal review and we expect to issue the final report during the next reporting
   period.

   Audit of the FCC Information and Technology Center Compliance with OMB Circular A-130

   OA contracted with LEC to perform an audit to determine whether the FCC is complying with
   requirements of OMB Circular A-130, Management of Federal Information Resources, as revised. The
   Circular requires agencies to establish and maintain an integrated Information Technology capital
   planning and investment control process. The fieldwork for the audit is complete and OIG is in the
   process of reviewing and approving the report. We expect to issue the final report during the next
   reporting period.

   Audit of FCC Civil Monetary Penalties

   OIG contracted with LEC to audit FCC management practices for initiating, tracking and collecting civil
   monetary penalties. Audit objectives include:

      1) Identify and assess the adequacy and effectiveness of FCC controls over the management of Civil
          Monetary Penalties; and
      2) Determine the adequacy of and compliance with FCC rules, directives, policies, and procedures;
          and determine FCC compliance with OMB, Treasury, and other federal government guidance
          regarding civil monetary penalties.

   The audit field work is in progress and we expect the audit report to be issued during the next semiannual
   reporting period.

   Audits of the Telecommunications Relay Service

   The Telecommunications Relay Service (“TRS”) fund compensates communications service providers for
   the costs of providing interstate telecommunications services that enable a person with hearing or speech
   disabilities to communicate with a person without hearing or speech disabilities. Video Relay Service
   (“VRS”) is form of TRS that enables persons with hearing disabilities who communicate in American
   Sign Language to communicate with voice telephone users through video equipment and an interpreter.

   Audit of 2012 Federal Funds Paid to Telecommunications Relay Service Providers

   OA contracted with Clifton Larson Allen, LLP for performance audits of five VRS providers.




FCC OIG - Semiannual Report to Congress                   12                     April 1, 2013 - September 30, 2013
                                        OFFICE OF AUDIT
  Audit objectives include:

     1) Determine whether all federal funds paid to providers in 2012 were applied in accordance with TRS
        program requirements and supported by adequate documentation, and
     2) Follow up on prior year findings and recommendations.

  Audit fieldwork is complete and we anticipate issuing the final audit reports during the next reporting
  period.

  Audit of VRS Providers Relay Service Data Request Projections

  OA contracted with LEC for performance audits of VRS providers’ cost and minutes of service projections
  as included in annual data submissions. Audit objectives include:

     1) Determine the basis of the calculations used to arrive at projections included in the Relay Service
        Data Requests forms submitted for rate-setting purposes; and
     2) Determine if the costs supporting the projections were allowable, reasonable and based on relevant
        historical and pertinent information.

  The scope of the audit includes accuracy of cost and minutes-of-service projections for program years 2008
  through 2012. Audit fieldwork is in process and we anticipate issuing the final audit report during the next
  reporting period.

  Audit of the TRS Fund Administrator

  OA contracted with LEC for a performance audit of the TRS Fund Administrator for the period from July
  1, 2011, through December 31, 2012. Audit objectives include:

     1) Whether the Administrator designed and implemented adequate internal controls to safeguard the
        fund’s assets; and
     2) Whether the following fund administration responsibilities are being effectively performed;
        specifically:

            Collecting money for the TRS Fund
            Developing compensation rate recommendations
            Determining the annual TRS Fund size and Carrier Contribution Factor
            Making payments to the TRS providers
            Advising the FCC on cost recovery issues

  Audit fieldwork is in process and we anticipate issuing the final audit report during the next reporting
  period.

  Universal Service Fund Oversight Division

  The Universal Service Fund Oversight Division (“USFD”) conducts audits, evaluations, inspections, and
  other activities designed to prevent and detect waste, fraud, and abuse and to promote economy,
  effectiveness, and efficiency in the Universal Service Fund (“USF”) programs, including the following:



FCC OIG - Semiannual Report to Congress                     13                     April 1, 2013 - September 30, 2013
                                       OFFICE OF AUDIT

   The High Cost Program helps to ensure that voice and broadband services are available to consumers
   across the country at comparable rates. FY2012 disbursements, including legacy and Connect America
   Fund support, were approximately $4.15 billion.

   The Schools and Libraries Program, often called “E-Rate,” provides discounts to help schools and
   libraries in every U.S. state and territory secure affordable telecommunications, Internet access, basic
   maintenance, and internal connections. Over 36,000 eligible applicants benefited in FY2012, receiving
   approximately $2.2 billion, bringing telecommunications and Internet services to millions of students and
   library patrons.

   The Lifeline Program helps eligible low-income consumers establish and maintain telephone service by
   discounting services provided to them by local telephone companies. Over 13.7 million low-income
   households throughout the nation benefited from 2012 program payments of approximately $2.19 billion.

   The Rural Health Care Program provides reduced rates to rural health care providers - including mobile
   health centers, hospital pharmacies, and medical training institutions — for telecommunications and
   Internet services necessary for providing health care. The Rural Health Care Program is made up of four
   programs: the Healthcare Connect Fund, the Telecommunications Program, the Internet Access Program
   and the Rural Health Care Pilot Program. For FY2012, over 3,500 health care providers in the Rural
   Health Care Program along with over 2,600 Rural Health Care Pilot Program providers received
   approximately $155 million in support. The Pilot Program supported the development of advanced
   networks to support telemedicine services. This year, building on lessons learned from the Pilot Program,
   FCC created the Healthcare Connect Fund to expand access to advanced broadband networks for HCPs
   serving rural areas across the country.

   Contributors. OIG is also responsible for providing oversight of the accuracy of USF receipts collected
   from telecommunications providers of international and interstate telecommunications services referred to
   as contributors. Over 3,000 contributors submitted total contributions of approximately $9 billion in
   FY2012.

   The OA Universal Service Fund Oversight Division is organized into three operational teams including (1)
   High Cost, (2) Contributors/Low Income, and (3) Schools and Libraries/Rural Health Care.

    Compliance Assessment Program Overview

   As part of the USFD effort to ensure beneficiary and participant compliance with USF program regulations
   and to evaluate effectiveness of the programs, OA is continuing the Compliance Assessment Program
   (“CAP”) discussed in a previous semiannual report to evaluate compliance, efficiency, and effectiveness of
   USF programs. CAPs are conducted in accordance with the “Quality Standards for Inspection and
   Evaluation” issued by the Council of the Inspectors General on Integrity and Efficiency. These
   inspections are performed consistent with OIG authority, for example, under sections 2(1) and 4(a)(1) of
   the Inspector General Act of 1978, as amended. CAPs are not intended as a substitute for any agency
   regulatory compliance review or regulatory compliance audit. Currently CAPs are being used for the High
   Cost and Schools & Libraries programs.




FCC OIG - Semiannual Report to Congress                   14                    April 1, 2013 - September 30, 2013
                                        OFFICE OF AUDIT

  Completed Audits and Other Projects

  Contributors/Low Income Program

  On September 30, 2013, we issued three final Low Income Compliance audit reports. The audits of
  Absolute Home Phones Inc. (report number 12-AUD-01-12), Easy Telephone Services, Inc. (report
  number 12-AUD-01-04), and Affordable Home Phones Inc. (report number 12-AUD-01-05) identified
  several findings in which the Companies did not comply with the FCC’s USF Low Income program rules.
  We found that all three Companies were not eligible for Link Up reimbursements for adding new Lifeline
  subscribers, and recommended total recoveries of almost $1.1 million. Two of the Companies claimed
  Lifeline discounts before obtaining the self-certification forms signed and dated by its subscribers. During
  the course of our audit, two of the Companies resolved a matter by returning almost $1.4 million for not
  having self-certifications for all of their subscribers.

  On April 18, 2013, we issued a Low Income Compliance final survey report on Flatel, Inc. (report number
  12-AUD-01-13) disclosing no instances of non-compliance with the Low Income program rules.

  On September 25, 2013, we issued Low Income Compliance final survey reports on PR Wireless, Inc.
  (report number 12-AUD-01-06) and Michigan Bell Telephone Company (report number 12-AUD-01-07)
  disclosing no instances of non-compliance with the Low Income program rules. Survey reports are issued
  when a decision is made to not expand the survey to a full-scope audit.

  Review of the FCC/USAC Lifeline Verification Process

  During this reporting period, OA completed a review of the Universal Service Administrative Company
  (“USAC”) process to identify and resolve duplicate Low Income subscriber accounts. On September 25,
  2013, we issued a memorandum describing two issues and included our suggested improvements to the
  process.

  In 2011, the FCC issued the Duplicative Lifeline Payments Order (FCC-11-97) directing USAC to identify
  and correct duplicate Lifeline subscriber accounts. The process, called In-depth Data Validations
  (“IDVs”), compares subscriber listings obtained from selected Lifeline providers in a given state. USAC
  has reviewed 17.8 million subscribers and found that 8.3 percent or about 1.5 million subscribers have
  more than one Lifeline account. Over 200,000 subscribers were found to have three or more accounts,
  with some having as many as 11 accounts.

  We found that that the duplicate review process is effective but stricter actions are needed for some
  duplicate subscribers. The process, saving $246.3 million to date, or nearly $90 for every dollar spent, is a
  cost effective method of reducing improper Lifeline fund payments. These estimates are based on the
  assumption that the offending subscribers will not return to the practice of obtaining duplicate Lifeline
  accounts. Given the large volume of subscribers found with duplicate accounts, we support the current
  process regarding subscribers found with one wire line and one wireless account. However, the process
  does not result in appropriate action taken regarding subscribers with three or more accounts. We made
  suggestions to further reduce improper payments, fraud, waste and abuse by taking additional actions to
  resolve duplications with subscribers found with three or more wire line and/or wireless Lifeline accounts.




FCC OIG - Semiannual Report to Congress                    15                     April 1, 2013 - September 30, 2013
                                         OFFICE OF AUDIT

  We also found that Lifeline subscribers are frequently warned of the consequences of abusing the Lifeline
  program. Every subscriber must sign a self-certification form, under penalty of perjury, that they are
  eligible for the Lifeline benefit and will receive only one benefit. Furthermore, the letters sent to
  subscribers found with duplicative Lifeline accounts warn them that willfully making false claims to obtain
  Lifeline support can be punishable by fine, suspension or being barred from the program, or face criminal
  prosecution. However, the FCC has never taken, or attempted, to punish a Lifeline subscriber and may not
  even have the authority to do so. We agree with Bureau officials that while prosecuting subscribers is not a
  cost effective option, suspending chronically abusive subscribers from the Lifeline program may be a
  timely and cost effective method to reduce the current level of fraud and abuse. To that end, we suggest
  that the FCC may improve the effectiveness of the warnings and reduce the level of fraud and abuse in the
  Lifeline program by determining whether it has the authority to suspend abusive subscribers, and if so,
  implement a process to suspend subscribers from Lifeline benefits in certain circumstances.

  Schools and Libraries/Rural Health Care Programs

  On June 4, 2013, we issued our compliance inspection report of Perry Street Preparatory Public Charter
  School (“Perry Street PPCS”). Our inspection disclosed that Perry Street PPCS did not comply with FCC
  rules related to 1) record retention and 2) maintenance of assets and inventory records. The School could
  not provide adequate documentation of the FY 2009 application, but we were able to obtain records from
  USAC to test compliance. We found that the School’s asset and inventory records were inadequate to
  locate USF equipment and verify when equipment was delivered and installed. We recommended
  recovery of $1,255 for missing equipment. We also recommended that the school 1) revise its policy and
  procedures concerning record retention; 2) retain all documentation to support the application including
  discount calculation; the competitive bidding process; asset and inventory records and 3) request approval
  from USAC for equipment substitutions. FCC has agreed with our recommendations and action to recover
  funds is ongoing.

  Status of Previously Issued Schools & Libraries Audit Reports

  For the first time, we are adding a feature to our semiannual report regarding the status of previously is-
  sued reports. As reports are resolved, whether through the administrative process or appeal to the FCC, we
  will be reporting on the financial impact of our audits. This initial reporting covers recently issued Schools
  & Library oversight reports; we will expand this information in future semi-annual reports.

  Hampstead Hill Elementary School (report number 10-AUD-11-01), dated December 19, 2012: Recovery
  of $292,444 was recommended due to the lack of an evaluation of cost effectiveness of a sole source bid.
  Action is pending. FCC agreed to recover if USAC’s review of the procurement finds that the contract
  award was not cost effective.

  Pittsburg Unified School District (report number 10-AUD-05-03), dated March 15, 2012: FCC disagreed
  that a violation occurred in our finding (concerning lack of a binding contract prior to the District’s
  application) and will not seek recovery of $2,153,888. OIG and FCC did not resolve this disagreement
  through the audit resolution process. Only $15,911 has been recovered where the district was overcharged
  by the service provider and services were paid for internal connections to an ineligible non-instructional
  facility.

  San Bernardino City Unified School District (report number 09-AUD-07-11), dated September 30, 2010:
  Funds in the amount of $464,228 were recovered due to service provider overcharges and payment for
  ineligible services/goods.

FCC OIG - Semiannual Report to Congress                    16                     April 1, 2013 - September 30, 2013
                                       OFFICE OF AUDIT

   In-Process Audits and Other Projects

   Review of 16 High Cost Incumbent Local Exchange Carriers

   A statistically valid analysis package for legacy High Cost programs that was initiated during a prior
   semiannual reporting period continues. The objective of this project is to determine a more efficient
   method for evaluating high cost data and providing oversight through the use of advanced audit and other
   analytical techniques. These advanced screening techniques will provide OIG with quantitative data
   allowing OIG to maximize limited resources. Major focus areas include, but are not limited to:

      1) Reasonableness of USF High Cost disbursements
          Costs outside of study area included in USF (may be limited exceptions)
          Affiliate transactions rules followed
          Regulated/non-regulated cost assignment rules followed
          Depreciation methods
          Other reasonableness tests

      2) Reasonableness of interstate special access revenue requirements in light of changes from the
   Transformation Order.

   Contributors/Low Income Program

   During this reporting period, we initiated a Low Income compliance audit of Mextel Communications Inc.
   We anticipate issuing a draft report during the next semiannual reporting period. Draft reports are
   provided to auditees to obtain comments on preliminary findings.

   Schools and Libraries/Rural Health Care Programs

   A project initiated during the last semiannual reporting period to review the Schools and Libraries Program
   focusing on recent and proposed reforms that affect achievement of program goals and the vulnerability of
   the program resources continues. We are reviewing prior audit recommendations; FCC performance
   reports; FCC Orders including recent reforms; prior investigations of fraud, waste and abuse and previous
   risk assessments. We anticipate issuing a report in the next reporting period.

   Special Projects Team

   The OA Special Projects Team oversees audits; conducts surveys, reviews and evaluations; prepares
   responses to Congressional requests; evaluates and recommends policy guidance; provides legal review
   and support, monitors legislative activities, case law and newly released publications related to the
   operations of OA; and completes other projects as assigned.




FCC OIG - Semiannual Report to Congress                   17                    April 1, 2013 - September 30, 2013
                                      OFFICE OF AUDIT

  Completed Projects and Assignments

  Performance Audit of FY2012 FCC Compliance with the Improper Payments Elimination and Recovery
  Act of 2010

  In accordance with the Office of Management and Budget Memorandum for the Heads of Executive
  Departments and Agencies, M-11-16, dated April 12, 2011, (“OMB Guidance”), OIG engaged the services
  of KPMG to audit FCC compliance with the Improper Payments Elimination and Recovery Act
  (Pub.L. 111-204) (“IPERA” or “IPIA”) for Fiscal Year 2012. The audit was conducted in accordance with
  generally accepted government auditing standards, and in its final report dated April 12, 2013, KPMG
  provided its opinion that it “did not identify instances of noncompliance with IPIA, as defined in (OMB
  Guidance).” The FCC expressed appreciation for a number of specific recommendations identified by
  KPMG for improving FCC’s identification of improper payments.
  In connection with the contract with KPMG, we attended most if not all interviews it conducted as part of
  its audit; regularly met with KPMG to discuss the audit status and any outstanding issues; and reviewed
  KPMG’s report and related documentation.

  In-Process Projects and Assignments

  During this semiannual reporting period this office completed the process of selecting an independent
  certified public accounting firm to conduct the IPERA audit for Fiscal Year 2013. Additionally we
  continued to monitor the implementation of the Improper Payments Elimination and Recovery
  Improvement Act of 2012, Public Law 112-248, signed into law on January 10, 2013.

  OA Assistance to the OIG Office of Investigations and Other FCC Organizations

  During this reporting period, OA provided audit and technical assistance to the OIG Office of
  Investigations and other FCC offices and bureaus on a number of topics, including:

            USTA Forbearance Petition
            Rate of Return Represcription Staff Report
            High Cost PQA program
            Inmate Calling Services (ICS)
            On-going high cost investigations




FCC OIG - Semiannual Report to Congress                   18                   April 1, 2013 - September 30, 2013
                                 OFFICE OF INVESTIGATION
  OFFICE OF INVESTIGATION

  OIG Office of Investigation (“OI”) covers a wide range of topics touching on myriad aspects of the FCC’s
  mission and programs. Most significantly, our investigations often address allegations of criminal
  misconduct or civil false claims. We deal with complex cybercrime investigations, large criminal
  conspiracies, and matters involving complex financial transactions throughout the United States and its
  territories. These difficult and wide-ranging cases often require substantial investigative expertise and
  resources including personnel on the ground across several states, or high-grade forensic tools and the
  expertise to use them. In these cases, we have always received, and are grateful for, the assistance of other
  agencies, especially the Offices of Inspector General of other federal agencies, and particularly, the Federal
  Bureau of Investigation (“FBI”).

  OI receives and investigates complaints regarding the manner in which the FCC executes its programs, how
  it handles its operations administratively, and how the FCC conducts its oversight responsibilities.
  Allegations come from a variety of sources including FCC managers and employees, contractors, program
  stakeholders, and whistleblowers.

  In addition to investigations regarding Commission programs, OI investigates internal affairs and examines
  allegations of improper employee and contractor activity implicating federal statutes or regulations
  establishing standards of conduct and procedure.

  OI, like most government offices, has an ever-increasing volume of work and limited resources. Thus,
  matters having the potential to significantly impact federal funds, important FCC missions or programs, or
  the basic integrity and workings of the agency, receive the highest priority for investigation and assignment
  of resources.

  Activity During This Period

  At the outset of this reporting period, 83 cases were pending. Over the last six months, 26 cases have been
  closed and 27 opened. As a consequence, a total of 84 cases are pending. These numbers do not include
  preliminary reviews of allegations, from the Hotline or other sources, or matters involving minimal analysis
  of the allegations or evidence.

  Statistics

  Cases pending as of April 1, 2013             83
  New Cases                                     27
  Cases Closed                                  26
  Cases pending as of September 30, 2013        84

  Significant Activities

  Several of the Office’s significant activities are described below. However, we discuss investigations only
  when and if information may be made public without negative impact on law enforcement activities,
  including criminal prosecutions, and without divulging investigative techniques. Thus, many matters could
  not be considered for inclusion in this summary.




FCC OIG - Semiannual Report to Congress                    19                     April 1, 2013 - September 30, 2013
                                 OFFICE OF INVESTIGATION

  Investigations into Fraud in the Federal Universal Service Program

  The bulk of the work of OI involves investigating and supporting civil and criminal
  investigations/prosecutions of fraud in the FCC’s federal universal service program. The AIGI and
  Investigations staff work routinely with other state, local and federal agencies in these matters. These
  coordinated investigatory and prosecutorial efforts, especially those involving the DOJ and its OIG and
  various U.S. Attorneys, have resulted in many successes, including civil settlements and criminal
  convictions.

  Most of our on-going universal service investigations are not known to the public and even some closed
  investigations cannot be disclosed because of sensitivities that could impact related ongoing matters.
  Following successful prosecutions from OI investigations, FCC’s Enforcement Bureau (“EB”) initiated
  several suspension proceedings.

  Highlighted below, are a few matters that have had public developments during the reporting period:

  Civil Settlements and Criminal Convictions

  In July 2013, Larry Lehmann agreed pay $400,000 to settle a qui tam lawsuit alleging that he violated the
  Federal False Claims Act for actions related to E-rate funded contracting from 2004 to 2006 at the Houston
  Independent School District (“HISD”). Lehman has also agreed to debarment from the E-rate Program,
  and government-wide Voluntary Exclusion from procurement and non-procurement programs. Both the
  debarment and Voluntary Exclusion are for a period of ten years.

  The investigation had already resulted in civil settlements with HISD and Hewlett-Packard, as well as
  criminal convictions of Dallas Independent School District’s chief technology officer, Ruben Bouchot, and
  Lehmann’s business partner, Frankie Wong.

  Larry Lehmann, the defendant in the civil suit, admitted in a 2008 deposition to providing loans to two
  separate HISD assistant superintendents for technology, Laura Palmer and William Edwards. The civil
  complaint alleges that, in addition to providing improper gifts and gratuities, Lehmann knowingly
  submitted and caused to be submitted false claims, false records, and false statements in order to obtain
  payments from the E-rate Program for work performed at HISD for ineligible services.

  In particular, Lehmann orchestrated a plan whereby HISD staff who worked on E-rate and non-E-rate
  projects would be hired by Lehmann’s company, Acclaim Professional Services. These outsourced
  employees were billed to the E-rate program while continuing to work at HISD as de facto HISD
  employees. Lehmann and his partners made the provision of these outsourced employees’ costs contingent
  on winning E-rate contracts at HISD. The E-rate program does not reimburse for school employee labor
  costs.

  Investigation into Fraud in the Federal Communications Commission Telecommunications Relay Service

  The FCC OIG is continuing its work with the Criminal Division of DOJ and the FBI in the ongoing
  investigation involving fraud on the FCC’s Telecommunications Relay Service (“TRS”) Fund program.
  See page 13 for a description of this program.




FCC OIG - Semiannual Report to Congress                   20                     April 1, 2013 - September 30, 2013
                                OFFICE OF INVESTIGATION

  In addition to working with the Criminal Division of DOJ, OIG continued its support of the Civil
  Division’s litigation of qui tam (federal false claims action brought in the name of the United States by a
  private citizen, the relator) against AT&T, for allegedly defrauding the TRS Fund in its provision of IP
  Relay, another form of TRS that allows individuals with hearing disabilities to communicate with voice
  telephone users through an internet connection and a communications assistant. The government’s
  complaint in intervention alleges that, by knowingly processing and claiming compensation for calls by
  hearing fraudsters, often residing in foreign locations (e.g., Nigerian Scam Calls), AT&T submitted false
  claims under the Federal False Claims Act (“FCA”). The parties are litigating the matter.

  OIG efforts in investigating IP relay fraud had a marked effect on the size of the IP Relay Fund. Our
  investigation, spurred by the qui tam, led to significant reform/enforcement efforts within the Commission
  and contributed to reduced annual claims of over $40 million (approximately a 60% reduction). In the
  2011 rate year, compensation for IP Relay calls was just over $68 million. In 2012, compensation dropped
  to $44.8 million and to $26.9 million in the 2013 rate year.

  SNAP-HDS

  After EB declined to initiate enforcement action, OI commenced an investigation of SNAP!VRS (“SNAP”)
  to determine whether it was fraudulently obtaining VRS funds. Further review of documents initially
  obtained by EB revealed that SNAP had misrepresented to the Commission a purported business
  arrangement with Hire Disability Solutions (“HDS”) whereby SNAP was to provide VRS to support
  training services provided by HDS.

  OI presented the allegations to the DOJ Civil Division, whereupon a case was opened pursuant to the
  FCA. Our joint investigation/interviews demonstrated that the SNAP-HDS program was merely an
  elaborate minute-pumping scheme.

  DOJ sent SNAP a demand letter offering to settle the FCA case without litigation, and SNAP admitted its
  wrongdoing. However, rather than settling the case with DOJ, SNAP went out of business and abandoned
  its claim to VRS compensation that was being withheld in light of our investigation. DOJ decided not to
  pursue further legal action. While OI did not achieve the optimal result of full recovery of wrongly paid
  amounts and treble damages, in our opinion our actions ultimately may have saved the TRS fund up to
  $750,000. Further, the case resulted in the removal of an unscrupulous service provider from the TRS
  market.

  OIG also continues to follow the Commission’s on-going TRS reform-related work, including efforts to
  reform services that are seeing a significant spike in usage, such as IP Cap-tel, a service intended to assist
  individuals with hearing loss by allowing them to listen to the spoken word while simultaneously reading
  captions of what is being spoken.

  Investigations into Fraud in Recovery Act Funded FCC Contracts

  OI has received allegations of fraud, waste, abuse and misconduct in the American Recovery and
  Reinvestment Act of 2009 (“ARRA” or “Recovery Act”) programs from a variety of sources, including the
  OIG Hotline, news reports, and the FCC’s Office of Managing Director. OI has closed all 35
  investigations, including five during this reporting period, pertaining to misconduct in the Recovery Act
  programs. Fraud and a number of contractual problems were revealed by our investigations.




FCC OIG - Semiannual Report to Congress                     21                     April 1, 2013 - September 30, 2013
                               OFFICE OF INVESTIGATION
   Examples of ARRA-related allegations received and investigated by OI include:

          1) Submission and payment of claims for compensation when work was not performed;
          2) Failure of contractor to submit timely and accurate invoices in accordance with the terms of
              their contract; and
          3) Improper invoicing by subcontractor to the FCC.

   Our most significant Recovery Act investigation recently came to a successful conclusion and is described
   below.

   Eric B. Jenkins, President of PrimeX Technology, Inc.

   On September 25, 2013, in the United States District Court for Arizona, Eric B. Jenkins, President of
   PrimeX Technology, Inc., was sentenced to five year's probation and required to pay full restitution of
   $493,610 after pleading guilty to one count of Transactional Money Laundering in connection with claims
   for compensation in the Digital Television In-Home Converter Box Installation Services program.

   Mr. Jenkins and his company were awarded two converter box installation contracts: one contract called
   for PrimeX to complete 10,000 Basic Installations for an overall contract value of $650,000; the other
   called on PrimeX to complete 1,000 Expert Installations for an overall contract value of $78,000.

   PrimeX submitted seven invoices to the FCC claiming it had completed 7,594 basic installations and 550
   expert installations and demanded a total of $536,510 in payment. FCC accepted five of the invoices and
   remitted $493,610 to PrimeX as payment for the claimed installations. FCC refused to accept the other
   two invoices, however, after discrepancies arose.
   The OI investigation revealed that all seven invoices and the supporting information were false. In fact,
   none of the claimed installations ever occurred.

   OI assisted in this investigation with the U.S. Attorney’s Office in the District of Arizona and the FBI.

   Internal Affairs

   The IG is authorized by the IG Act, as amended, to investigate allegations of fraud, waste and abuse
   occurring within FCC programs and operations. Matters of possible wrongdoing are referred to the OI in
   the form of allegations or complaints from a variety of sources, including FCC employees, contractors,
   other government agencies and the general public.

   In conducting investigations during the past several years, OI has sought assistance from and worked
   jointly with other law enforcement agencies, including other OIGs, the FBI, the Federal Trade Commission
   (“FTC”), the Department of Homeland Security, the Securities and Exchange Commission, the Internal
   Revenue Service, National Archives and Records Administration, and the Recovery Accountability and
   Transparency Board as well as state agencies.




FCC OIG - Semiannual Report to Congress                     22                     April 1, 2013 - September 30, 2013
                               OFFICE OF INVESTIGATION

  Proactive Investigation of Child Pornography on the FCC Network

  OI conducted a proactive investigation of child pornography on the FCC network. The purpose of the
  investigation was to scan computers and other devices connected to the FCC network to determine if
  child pornography was stored on this equipment. To conduct the proactive investigation, OIG
  investigators worked with contractor personnel from the Network Security Operations Center
  (“NSOC”). OIG investigators developed a comprehensive list of child pornography keywords obtained
  from the National Institute of Justice (NIJ), Internet Crimes Against Children (“ICAC”) Task Force,
  and other law enforcement sources. The keyword list was provided to NSOC personnel. NSOC
  personnel used a contractor proprietary tool to run the keyword list against files names on devices
  connected to the FCC network. NSOC staff ran the tool two days per week for four weeks and provided
  the results of the search to OIG personnel. The initial results of the search identified 92 devices
  containing files with names that contained keywords from the comprehensive keyword list. OIG
  investigators reviewed the search hits and used professional judgment to identify and remove search hits
  that appeared to be false positives. Ultimately, 70 of the of the original devices under review were
  removed from the list of devices warranting further examination. FCC investigators previewed the
  remaining 22 computers devices and determined that none of them contained child pornography.
  However two computers are the subject of separate investigations based on significant amounts of
  pornographic material as well as solicitation and time and attendance issues.

  Gray Market or Counterfeit Goods Provided by FCC Contractor

  The FCC Information and Technology Office ordered a shipment of Cisco brand computer equipment from
  a company in September 2011. Due to the diligence of the FCC IT staff, they noticed irregularities with
  the packaging, labeling and the manner of shipment. After having made preliminary inquiries to Cisco that
  confirmed that much of the equipment was potentially either "gray market" (business conducted outside
  normal distribution channels by a company having no relationship with the manufacturer and which
  was clearly prohibited by the contract) or was counterfeit, IT sought the assistance of OIG. Once Cisco
  representatives more conclusively determined that at least a portion of the shipment was counterfeit, IG
  investigators began working with Immigration and Custom Enforcement agents who seized the goods to
  determine further the exact nature of the equipment and whether criminal charges should be brought
  against the vendor. This additional investigation resulted in the company going out of business during this
  reporting period, ending potential false claim litigations and eliminating a possible future source of illicit or
  non-warrantable equipment to numerous other federal agencies.

  Office of Inspector General Hotline

  OIG maintains a Hotline to facilitate the reporting of allegations of fraud, waste, abuse, mismanagement or
  misconduct in FCC programs or operations. Commission employees and concerned citizens may report
  such allegations to the Hotline at (202) 418-0473 or toll free at (888) 863-2244 or by e-mail at
  hotline@fcc.gov. OIG’s Hotline is available 24 hours a day, seven days a week via a recorded messaging
  system.




FCC OIG - Semiannual Report to Congress                     23                      April 1, 2013 - September 30, 2013
                    OFFICE OF INSPECTOR GENERAL HOTLINE

   Consumers who have general questions or issues not related to fraud, waste and abuse, should contact the
   FCC’s Consumer & Governmental Affairs Bureau (“CGB”) at www.fcc.gov/cgb, or contact the FCC’s
   Consumer Center by calling 1-888-CALL-FCC (1-888-225-5322) voice or 1-888-TELL-FCC
   (1-888-835-5322). CGB develops and implements the Commission’s consumer policies, including
   disability access. The FCC Consumer Center accepts public inquiries, informal complaints, and questions
   regarding cable, radio, satellite, telephone, television and wireless services.

   Upon receipt of a specific claim of fraud, waste, abuse, or mismanagement, OIG may take any one of the
   following actions:

          1) Open an OIG investigation or audit;
          2) Refer the matter to FCC management for appropriate review and action; or
          3) Refer the allegation to another Federal agency. For example, complaints about
             fraudulent sweepstakes are referred to FTC, the nation’s consumer protection agency.

   During the current reporting period, OIG received:

          1) 809 Hotline contacts. Of these, 39 referred to OI for possible case openings;
          2) 402 were referred to FCC Consumer Center; and
          3) 368 were referred to other agencies including the FTC




FCC OIG - Semiannual Report to Congress                   24                     April 1, 2013 - September 30, 2013
                                REPORTING REQUIREMENTS
  The following are the Office of Inspector General response to the 12 specific reporting requirements set
  forth in Section 5(a) of the Inspector General Act of 1978, as amended.

  1. A description of significant problems, abuses, and deficiencies relating to the administration of
  programs and operations of such establishment disclosed by such activities during the reporting period.

  Please refer to the sections of this report titled “Office of Audit” and “Office of Investigations.”

  2. A description of the recommendations for corrective action made by the Office during the reporting
  period with respect to significant problems, abuse, or deficiencies identified pursuant to paragraph (1).

  Please refer to the sections of this report titled “Office of Audit” and “Office of Investigations.”

  3. An identification of each significant recommendation described in previous semiannual reports on which
  corrective action has not yet been completed.

  No significant recommendations remain outstanding.

  4. A summary of matters referred to authorities, and the prosecutions and convictions which have resulted.

  Please refer to the section of this report titled “Office of Investigations."

  5. A summary of each report made to the head of the establishment under section (6) (b) (2) during the
  reporting period.

  No report was made to the Chairman of the FCC under section (6) (b) (2) during this reporting period.

  6. A listing, subdivided according to subject matter, of each audit report issued by the Office during the
  reporting period, and for each audit report, where applicable, the total dollar value of questioned costs
  (including a separate category for the dollar value of unsupported costs) and the dollar value of
  recommendations that funds be put to better use.

  Each audit report issued during the reporting period is listed according to subject matter and described in
  the “Office of Audit” section.

  7. A summary of each particularly significant report.

  Each significant audit and investigative report issued during the reporting period is summarized within the
  audits and investigations sections.

  8. Statistical tables showing the total number of audit reports with questioned costs and the total dollar
  value of questioned costs.

  9. Statistical tables showing the total number of audit reports with recommendations that funds be put to
  better use and the total dollar value of such recommendations.

  We issued no reports with recommendations that funds be put to better use during the reporting period


FCC OIG - Semiannual Report to Congress                      25                    April 1, 2013 - September 30, 2013
                              REPORTING REQUIREMENTS

  10. A summary of each audit report issued before the commencement of the reporting period for which no
  management decision has been made by the end of the reporting period (including the date and title of each
  such report), an explanation of the reasons why such a management decision has not been made, and a
  statement concerning the desired timetable for achieving a management decision on each such report.

  No audit reports fall within this category.

  11. A description and explanation of the reasons for any significant revised management decision made
  during the reporting period.

  No management decisions fall within this category.

  12. Information concerning any significant management decision with which the Inspector General is in
  disagreement.

  No management decisions fall within this category.

  13. Information described under section 05(b) of the Federal Financial Management Improvement Act of
  1996.

  No reports with this information have been issued during this reporting period.


                                 Table I: OIG Reports With Questioned Costs
            Inspector General Reports With Questioned        Number    Questioned Unsupported
            Costs                                              of      Costs      Costs
                                                             Reports
            A. For which no management decision has
                                                                                         _
            been made by the commencement of the                 1      $292,444
            reporting period.
            B. Which were issued during the reporting            4     $1,101,255        _
            period.
            C. For which a management decision was                      $293,699         _
                                                                 2
            made during the reporting period
            (i) Dollar value of disallowed costs                 _          _            _

            (ii) Dollar value of costs not disallowed            _          _            _

            D. For which no management decision has
                                                                                         _
            been made by the end of the reporting period.        3     $1,100,000

            E. For which no management decision was              _          _            _
            made within six months of issuance




FCC OIG - Semiannual Report to Congress                     26                  April 1, 2013 - September 30, 2013
                                             APPENDIX

    As required by Public Law 111-203, OIG is pleased to report that during this reporting period the Government
    Printing Office (“GPO”), Office of Inspector General, conducted a peer review of this office. Two
    recommendations were noted in the letter of comment dated September 24, 2013. GPO OIG recommended
    we update our Audit Manual to include all auditing standard requirements and that we ensure audit
    recommendations are tracked and resolutions are documented. We have already initiated corrective actions for
    these matters. In the peer review report, also dated September 24, 2013, OIG received a peer review rating of
    “pass”.




FCC OIG - Semiannual Report to Congress                 27                    April 1, 2013 - September 30, 2013
                        Office of Inspector General
                   Federal Communications Commission
                    445 12th Street S.W. Room 2-C-762
                          Washington, DC 20554
                         WWW. FCC.GOV/OIG




                          Report fraud, waste or abuse to:

                              Email: Hotline@FCC.gov
                              Call Hotline: 202-418-0473
                                            888-863-2244




FCC OIG - Semiannual Report to Congress   28          April 1, 2013 - September 30, 2013
